CERTIFICATE OF SERVICE
I hereby certify that on October 12, 2021, I filed with the Clerk’s Office of the
Supreme Court of the United States, via Federal Express and e-filing, the required
number of copies of the foregoing Application for Extension of Time to File Petition
for Writ of Certiorari, and further certify that I hereby served, via U.S. Mail and email, the foregoing document to the following:
Christopher R.J. Pace
Ricardo H. Puente
JONES DAY
600 Brickell Ave., Ste. 3300
Miami, FL 33131
crjpace@jonesday.com
Robert N. Stander
Benjamin C. Mizer
J. Benjamin Aguinaga
JONES DAY
51 Louisiana Ave., N.W.
Washington, D.C. 20001
rstander@jonesday.com
Dee J. Kelly, Jr.
Lars L. Berg
KELLY HART & HALLMAN LLP
201 Main Street, Ste. 2500
Fort Worth, Texas 76102
dee.kelly.2@kellyhart.com

/s/ Ryan M. Goldstein
Ryan M. Goldstein

1

